<html>
<title> - [H.A.S.C. No. 114-49] THE OBAMA ADMINISTRATION'S DEAL WITH IRAN: IMPLICATIONS FOR MISSILE DEFENSE AND NONPROLIFERATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                                    
 
                          [H.A.S.C. No. 114-49]

                    THE OBAMA ADMINISTRATION'S DEAL

                      WITH IRAN: IMPLICATIONS FOR

                  MISSILE DEFENSE AND NONPROLIFERATION

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 10, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-240                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          










                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           










                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     3
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Almont, Christopher J., Senior Defense Intelligence Expert, 
  Defense Intelligence Agency....................................     6
Klotz, Lt Gen Frank G., USAF (Ret.), Administrator, National 
  Nuclear Security Administration................................     3
Scher, Hon. Robert M., Assistant Secretary of Defense for 
  Strategy, Plans, and Capabilities, U.S. Department of Defense..     5
Shepro, Maj Gen Steven M., USAF, Vice Director for Strategic 
  Plans and Policy, J5, Joint Staff..............................     8
Syring, VADM James D., USN, Director, Missile Defense Agency.....     7

                                APPENDIX

Prepared Statements:

    Almont, Christopher J........................................    43
    Klotz, Lt Gen Frank G........................................    28
    Rogers, Hon. Mike............................................    25
    Scher, Hon. Robert M.........................................    33

Documents Submitted for the Record:

    Letter from Mr. Thornberry and Mr. Nunes to Secretary of 
      State, Secretary of Energy, and Director of National 
      Intelligence...............................................    49
    Two charts on U.S. missile defense funding to Israel.........    51

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    59
    Mr. Rogers...................................................    55
    Mr. Turner...................................................    60

               THE OBAMA ADMINISTRATION'S DEAL WITH IRAN:
         IMPLICATIONS FOR MISSILE DEFENSE AND NONPROLIFERATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                      Washington, DC, Thursday, September 10, 2015.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. I call this Subcommittee on 
Strategic Forces to order. And this afternoon we are here to 
discuss ``The Obama Administration's Deal with Iran: 
Implications for Missile Defense and Nonproliferation.''
    We have testifying today a distinguished panel of 
witnesses. They are the Honorable Frank Klotz, Administrator, 
National Nuclear Security Administration; the Honorable Robert 
Scher, Assistant Secretary of Defense for Strategy, Plans, and 
Capabilities, the U.S. Department of Defense [DOD]; Christopher 
Almont, Senior Defense Intelligence Expert, Iran and the 
Arabian Peninsula, Middle East Africa Regional Center, Defense 
Intelligence Agency [DIA]; Vice Admiral James Syring, Director 
of Missile Defense Agency [MDA]; and Major General Steven 
Shepro, Vice Director of Strategic Plans and Policy, J5, Joint 
Staff.
    I want to note that the subcommittee invited a witness from 
the State Department to testify today. We were told in writing 
that he was available. He would be watching us even now from 
his office since his schedule was open. However, he is not here 
today. I understand that senior officials at the State 
Department decided not to send him because the Department isn't 
ready to discuss implementation.
    Well, I think every member of this subcommittee should be 
angered by the disrespect which this membership and our 
witnesses have been treated by the State Department. Moreover, 
the entire Congress, as it prepares to vote on the Iran 
agreement, should be bothered that we are being asked to vote 
on this agreement and Department of State won't discuss how it 
will be implemented.
    With that unpleasantness aside, I will move to the joint 
hearing.
    In February of 2014, Under Secretary of State Wendy 
Sherman, a lead negotiator of the Iran agreement whose record 
reflects she also gave us the Agreed Framework with North Korea 
that gave the Kim family its nuclear weapons arsenal, stated in 
testimony before the House Foreign Affairs Committee that, 
quote, ``It is true that in these first 6 months we have not 
shut down all of their production of any ballistic missile that 
could have anything to do with delivery of a nuclear weapon, 
but that is indeed something that has to be addressed as a part 
of a comprehensive agreement,'' closed quote.
    Now, let me repeat that, quote, ``But that is indeed 
something that has to be addressed as a part of a comprehensive 
agreement,'' closed quote.
    We all know what has happened to Iran, Russia, and China 
instead. In July, the President's senior military advisor, 
General Martin Dempsey, the Chairman of Joint Chiefs of Staff, 
testified, quote, ``Under no circumstances should we relieve 
pressure on Iran relative to ballistic missile capabilities and 
arms trafficking,'' closed quote.
    I want to repeat that. ``Under no circumstances'' is what 
he said. Why is this important? As stated by your senior DOD 
leadership, the ban on technology for ballistic missiles was 
critical to America's own security, especially since Iran's 
ballistic missiles would be dangerous weapons if they were ever 
equipped with chemical, biological, or even nuclear warheads.
    Even if we assume the Iranians will honor the nuclear 
agreement, which we would be foolish to assume, we are paying 
no attention here to the chemical and biological weapons 
programs. Just this weekend, according to press reports, 45 
Emirati soldiers fighting Iranian proxies in Yemen were killed 
by a ballistic missile with a conventional warhead. We don't 
have missile defense solely because the bad guys may have 
nuclear capability.
    I will read an excerpt from the most recent arms control 
compliance report on Iran:
    ``Based on available information, the United States cannot 
certify whether Iran has met its chemical weapons production 
facility declaration obligations, destroyed its specialized 
chemical weapons equipment, transferred CW''--chemical 
weapons--``or retained an undeclared chemical weapons 
stockpile. The JCPOA [Joint Comprehensive Plan of Action] 
ignores this violation and provides Iran more funding for 
chemical and biological weapons. Iran is also not in compliance 
with the Biological Weapons Convention, the ballistic missiles 
it needs to deliver them.''
    I also want to indicate my strong agreement with the letter 
sent by Chairman Thornberry and House Permanent Select 
Committee on Intelligence Chairman Devin Nunes last week, which 
I will add to the record, that this agreement appears to have 
already started the cascade of proliferation in the Middle 
East.
    [The information referred to can be found in the Appendix 
on page 49.]
    Mr. Rogers. Unfortunately, I can't say much more in this 
environment, but I believe Secretary Kerry owes this body 
information before we vote. Chairman Thornberry and Chairman 
Nunes asked for a response by this past Tuesday, and that 
response has not been provided.
    I have stated before that I believe the administration 
concealed material information concerning Russia's violation of 
the INF [Intermediate-Range Nuclear Forces] Treaty from the 
United States Congress while the Senate was considering the New 
START [Strategic Arms Reduction] Treaty in 2010. I have come to 
the same conclusion about this.
    I will cast my vote against the JCPOA, but I do not believe 
that the President will heed any call from this Congress about 
this legacy deal for him. We have a constitutional law 
professor as a President who seems to be unfamiliar with the 
Constitution's checks and balances, so we must all turn to 
cleaning up the mess that is being created and what is going to 
be required to fix it. I only hope that generations to come 
will not pay too high a price for the mistake of this President 
and what he is doing now.
    Before turning to the ranking member for any opening 
statements that he may make, I want to remind all my colleagues 
who attended this morning's classified session on Iran's malign 
activities that that was a highly classified briefing, and 
details from this morning should not be discussed in this open 
session. We will adjourn to a closed briefing at the conclusion 
of this open hearing, and at that appropriate venue we can have 
discussion of those details.
    And, with that, I turn to my friend and colleague from 
Tennessee, Mr. Cooper, for any opening statement that he may 
have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 25.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman.
    I, too, welcome the witnesses, and I appreciate this 
opportunity to hear from them.
    Let me emphasize the word ``hear.'' This is called a 
hearing. It is not a press conference. We call it a hearing so 
that we can hear from the witnesses, which I look forward to 
doing.
    And I would just urge the chairman and other colleagues who 
may come that we make this open portion as brief as possible so 
that we can get to the classified session, because I think that 
will be also much more useful as well as less risky in terms of 
what people around the world may hear.
    This is the third briefing on Iran today, and it is the 
only one to have an open portion. So, with that, I would 
particularly urge my chairman and my colleagues to keep this 
open session as short as possible so that we can get to the 
classified session.
    Thank you, Mr. Chairman.
    Mr. Rogers. I concur with that view.
    General Klotz, we will start with you, if you could 
summarize your opening statement.

STATEMENT OF LT GEN FRANK G. KLOTZ, USAF (RET.), ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    General Klotz. Thank you, Chairman Rogers, Ranking Member 
Cooper. Thank you for the opportunity to discuss the Joint 
Comprehensive Plan of Action, JCPOA, reached between the P5+1 
[China, France, Russia, the United Kingdom, and the United 
States, plus Germany], the European Union, and Iran.
    Let me state right up front, the Department of Energy [DOE] 
and the National Nuclear Security Administration [NNSA] value 
your robust support and abiding support for our mission and for 
our people. In that regard, I appreciate the opportunity to 
discuss a critical component of our overall mission, 
specifically our support to the International Atomic Energy 
Agency, or the IAEA. The IAEA, as you know, has a special 
responsibility in monitoring and verifying the nuclear-related 
measures detailed in the JCPOA.
    I have provided a written statement, and I respectfully 
request that it be submitted for the record.
    As Secretary of Energy Moniz has said, the JCPOA prevents 
Iran from acquiring a nuclear weapon, and it provides strong 
verification measures that would give us ample time to respond 
if Iran chooses to violate its terms. It is a very good deal 
for America, for our allies, and for our global security. And I 
fully share his view and this view.
    The Department of Energy and NNSA's nuclear experts, 
national laboratories, and nuclear security sites were 
extensively involved throughout the negotiations, evaluating 
and developing technical proposals in support of the U.S. 
delegation. As a result of their work, Secretary Moniz has said 
that he is confident that the technical underpinnings of the 
JCPOA are solid and that the Department stands ready to assist 
the IAEA in its implementation.
    Let me take a moment to discuss, as you requested, the 
Department's important work with the IAEA on nuclear 
safeguards.
    Safeguards are defined as the set of technical measures 
applied by the IAEA to independently and objectively verify 
that a state's nuclear material is accounted for and not 
diverted to nuclear weapons or other nuclear explosives. 
Safeguards also provide credible assurance of the absence of 
undeclared nuclear materials and activities.
    These technical measures include, for example, on-site 
inspection; nuclear material accountancy; physical 
measurements; facility design information verification; 
containment using tamper-indicating tags and seals; 
surveillance, including the use of cameras; and environmental 
sampling.
    DOE and NNSA have closely cooperated with the IAEA's 
Department of Safeguards for many decades in developing and 
enhancing these measures. The full range of our involvement 
with the IAEA is actually described in this recently just hot-
off-the-press brochure prepared by the NNSA, and we have ample 
copies here for members and for staff if you choose to take 
one.
    Our work with the IAEA also includes funding, training, 
technology transfers, and expertise. In fact, since 1980, every 
new IAEA inspector has had nuclear materials measurement 
training at the Los Alamos National Laboratory. And, every 
year, the Department hosts additional specialized training 
courses for IAEA inspectors and analysts both here and abroad.
    Our partnership with the IAEA has also generated various 
technologies for use in safeguard systems. For example, the 
Online Enrichment Monitor, the OLEM, is one example of the 
technology jointly developed by our national laboratories and 
the IAEA. The OLEM can continuously monitor the enrichment 
levels of uranium in gaseous forms at a centrifuge enrichment 
plant. And, for the first time, as a result of this JCPOA, the 
OLEM will be used in Iran.
    Sir, I would be very happy to provide any additional 
information on our involvement in response to any questions you 
may have, either in this open session or in the closed session.
    Thank you, sir.
    [The prepared statement of General Klotz can be found in 
the Appendix on page 28.]
    Mr. Rogers. Thank you, General.
    Mr. Scher.

   STATEMENT OF HON. ROBERT M. SCHER, ASSISTANT SECRETARY OF 
DEFENSE FOR STRATEGY, PLANS, AND CAPABILITIES, U.S. DEPARTMENT 
                           OF DEFENSE

    Secretary Scher. Chairman Rogers, Ranking Member Cooper, 
and members of the subcommittee, thank you for the opportunity 
to testify on missile defense and the Joint Comprehensive Plan 
of Action, or the JCPOA. I am grateful for this committee's 
consistent attention to and continuing support of the critical 
mission of defending our homeland, our deployed forces, allies, 
and partners.
    I, too, have submitted written testimony for the record so 
will look to keep these opening remarks relatively brief.
    I would like to start by repeating what Secretary Carter 
has noted. The JCPOA places no limitations on the Department of 
Defense; no restrictions on our plans, programs, capabilities, 
or what we can do with our friends and allies.
    For decades, we have focused on and prioritized the 
totality of challenges that Iran poses to our interests. The 
Department has organized itself to deal with Iran's ballistic 
missile capabilities through our preparations, partnerships, 
force posture, and plans.
    I am happy to speak today about our missile defense 
policies, but, as you had noted, nonproliferation programs and 
sanction regimes fall outside of my portfolio, so I will have 
to defer those questions.
    As you have been briefed, the JCPOA is a nuclear deal, not 
a ballistic missile deal. As such, it does not obviate the need 
for ballistic missile defenses, and it does not change our 
programs or plans for continued cooperation on missile defense.
    Iran has the largest inventory of ballistic missiles in the 
Middle East and today can strike targets throughout the region 
and into Eastern Europe. While Iran has not yet developed an 
intercontinental ballistic missile [ICBM], its progress on 
space-launch vehicles provides Iran the means to develop 
longer-range missiles.
    There is no doubt in my mind that Iran's ballistic missile 
activities continue to pose a risk to the United States and our 
allies and partners in Europe, Israel, and the Gulf. However, 
this is exactly why the United States has maintained a robust 
missile defense posture throughout the region and why we have 
focused on missile defense cooperation with these same partners 
and allies.
    I also want to reaffirm that the U.S. homeland is currently 
protected against potential limited ICBM attacks from Iran 
should they deploy such a capability in the future. We continue 
to strengthen our homeland defense posture and invest in 
technologies which better enable us to address emerging threats 
in the next decade, including continued improvement to the 
Ground-Based Midcourse Defense [GMD] system and the redesigned 
kill vehicle for the Ground-Based Interceptor [GBI].
    Secondly, the administration continues to recognize the 
regional Iranian ballistic missile threat and remains committed 
to strengthening regional missile defenses. As President Obama 
stated in Prague on April 5, 2009, and I quote, ``Iran's 
nuclear and ballistic missile activity poses a real threat, not 
just in the United States but to Iran's neighbors and our 
allies. As long as the ballistic missile threat from Iran 
persists, we will go forward with a missile defense system that 
is cost-effective and proven.''
    In 2009, we went on to state that the European Phased 
Adaptive Approach would have the ability to defend all of NATO 
Europe from Iranian ballistic missiles, and that commitment 
remains.
    Outside of NATO, we are working closely both operationally 
and on counter-ballistic missile development with Israel to 
address the Iranian ballistic missile threat. We are currently 
codeveloping missile defense technology with Israel on Iron 
Dome, David's Sling, and the Arrow systems. Since 2001, we have 
provided over $3 billion for missile defense to Israel.
    As the Secretary also recently noted with Prime Minister 
Netanyahu and Minister of Defense Ya'alon, we are full speed 
ahead on addressing these issues in collaboration with our 
Israeli counterparts.
    The Department also continues to implement the deployment 
of missile defenses that are tailored to the security 
circumstances in the Middle East with a number of Gulf 
Cooperation Council [GCC] states, which I detail in my written 
statement. During the Secretary's recent discussions with the 
Saudi Minister of Defense, we reiterated our commitment to 
working with Gulf countries on missile defense, specifically 
emphasizing the importance of collective BMD [ballistic missile 
defense] among the GCC countries, the importance of 
interoperability, and a common intelligence picture.
    Members of the subcommittee, to conclude, I want to 
reiterate that, regardless of any deal, the Department will 
continue to improve our homeland defense capabilities against 
any potential Iranian ballistic missile threat; maintain a 
robust BMD posture throughout threatened regions, including the 
Middle East and Europe; and will focus on increasing 
cooperation with those same partners and allies to deter 
against and respond to any potential Iranian aggression.
    I look forward to answering your questions in this session 
or, when necessary, in the following closed session. Thank you.
    [The prepared statement of Secretary Scher can be found in 
the Appendix on page 33.]
    Mr. Rogers. I thank you.
    Mr. Almont, you are recognized for 5 minutes.

STATEMENT OF CHRISTOPHER J. ALMONT, SENIOR DEFENSE INTELLIGENCE 
              EXPERT, DEFENSE INTELLIGENCE AGENCY

    Mr. Almont. Good afternoon, Chairman Rogers, Ranking Member 
Cooper, and members of the subcommittee. I thank you for the 
opportunity to offer testimony today regarding the Joint 
Comprehensive Plan of Action, or JCPOA, and implications for 
Iran's missile defense and nonproliferation.
    Iran continues to be a threat to regional stability, as its 
regime's national interests often diverge with U.S. and our 
regional allies' security priorities in this dynamic and 
turbulent region. Understanding Tehran's support to terrorists 
and subnational armed groups as well as its military 
capabilities and regional ambitions are a priority for DIA's 
analysts and collectors. For years to come, we expect Iran to 
be a difficult target.
    For Iran, its national security strategy remains to ensure 
the regime's survival, expand its regional influence, and 
enhance Tehran's military deterrence and regional superiority.
    Iran's ballistic missile capability will continue to 
threaten U.S. strategic interests in the Middle East. Iran's 
overall defense strategy relies on a substantial inventory of 
theater ballistic missiles capable of striking targets 
throughout the region. Iran will continue to develop more 
sophisticated missiles and is improving the range and accuracy 
of its current missile systems irrespective of JCPOA 
implementation.
    Iran publicly stated that it intends to launch a space-
launch vehicle as early as this year. This vehicle would be 
capable of intercontinental ballistic missile ranges if 
configured as an ICBM.
    Post-JCPOA economic growth could provide Tehran more money 
for ballistic missile development, but engineering and 
infrastructure challenges will remain. U.N. [United Nations] 
restrictions on ballistic-missile-related sales and purchases 
will remain in place for 8 years following adoption day or 
until the IAEA reaches its broader conclusion, whichever is 
sooner.
    After the U.N. restrictions end, international and domestic 
tools, such as the Missile Technology Control Regime, or MTCR, 
the Proliferation Security Initiative, and U.S. export controls 
will still apply, and the U.S. will retain its ability to 
impose missile-related sanctions under nonnuclear sanctions 
authorities, including Executive Orders 12938 and 13382.
    In addition, secondary sanctions will continue to attach to 
foreign financial institutions and other persons that engage in 
transactions with Iranian missile proliferators sanctioned by 
the Department of the Treasury.
    Mr. Chairman, I thank you for this opportunity to discuss 
these important topics. I look forward to the subcommittee's 
questions and a more detailed discussion in the closed session.
    [The prepared statement of Mr. Almont can be found in the 
Appendix on page 43.]
    Mr. Rogers. Thank you, Mr. Almont.
    Admiral Syring, you are recognized for 5 minutes.

   STATEMENT OF VADM JAMES D. SYRING, USN, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    Admiral Syring. Thank you, Mr. Rogers. Mr. Chairman, 
Ranking Member Cooper, thank you for the opportunity to be here 
today and specifically address missile-defense-related 
questions.
    I will save time and save my comments for the Q&A [question 
and answer] period. Again, thank you for the invitation.
    Mr. Rogers. How do you like that, Mr. Cooper?
    Mr. Cooper. That is good.
    Mr. Rogers. I thought you would like that.
    General, no pressure.

STATEMENT OF MAJ GEN STEVEN M. SHEPRO, USAF, VICE DIRECTOR FOR 
          STRATEGIC PLANS AND POLICY, J5, JOINT STAFF

    General Shepro. Very quick. Thank you, Chairman Rogers, 
Ranking Member Cooper, and members of this subcommittee. I 
likewise appreciate the opportunity to address your questions 
regarding the military implications of the Joint Comprehensive 
Plan of Action.
    The Joint Staff will remain concerned with over all of 
Iran's destabilizing activities within the region, among which 
is its expanding ballistic missile inventory and technology 
that Assistant Secretary Scher just underlined.
    To address these concerns, we will preserve the military 
options at our disposal. We will likewise preserve our posture 
and engagements with our longstanding partners in the region to 
assure our mutual security.
    I look forward to your questions.
    Mr. Rogers. Well, thank you.
    I will recognize myself first.
    General Klotz, you heard my reference to the DOE and State 
Department letters that Thornberry and Nunes sent. Do you have 
anything that you can tell us on the status of our response, 
when are we going to get a response?
    General Klotz. Mr. Chairman, I understand that they are 
being actively worked within both departments as we speak.
    Mr. Rogers. So, no. All right.
    General, let me stay with you just a minute. Is it correct 
the so-called 123 Agreement between the U.S. and the Emirates 
would prohibit possession of uranium enrichment and plutonium 
reprocessing technology by that country?
    General Klotz. I believe that is correct.
    Mr. Rogers. Well, is it correct that we have been seeking 
an agreement with Saudi Arabia for the same so-called gold-
standard-type agreement?
    General Klotz. That, sir, I think is something, since it is 
an ongoing discussion, that we ought to discuss in the closed 
session, if I could defer to that.
    Mr. Rogers. I will do that.
    Mr. Almont, I may get the same response from you, but are 
you aware of any information concerning intentions of the UAE 
[United Arab Emirates] or Saudi Arabia regarding their plans to 
develop uranium enrichment capabilities?
    Mr. Almont. And I, too, would like to defer until the----
    Mr. Rogers. All right.
    Admiral Syring, are you aware of any discussions post-JCPOA 
of changing the deployment of Phase 3 of the EPAA in Poland?
    Admiral Syring. No, sir, I am not aware of any changes.
    Mr. Rogers. Great.
    Mr. Scher, as the senior DOD witness here today, are you 
able to pledge without hesitation that the administration will 
make no changes whatsoever to the employment of the Aegis 
Ashore site in Romania and Poland as consequences of JCPOA?
    Secretary Scher. Currently, our plan stands as it always 
has, which is to make those deployments as you have discussed.
    Mr. Rogers. Great.
    Mr. Cooper, you are recognized.
    Mr. Cooper. Well, thank you, Mr. Chairman. I am so looking 
forward to the classified session, I thought I would do what I 
could to expedite our movement to 2337.
    Mr. Rogers. Mr. Lamborn, you are recognized.
    Mr. Lamborn. Thank you.
    Well, I do think this is an important issue that has public 
ramifications, as well as secure ramifications that we can talk 
about in closed session. So I want to talk about some things 
here openly and in public that I am curious about and the 
American people might be curious about.
    Mr. Scher, you talked about that with the Israelis and 
joint missile defense projects that things were, quote, ``We 
are full speed ahead.''
    Now, one thing that seems like a disconnect to me is that, 
when it comes to coproduction of the Arrow 3 and David's Sling, 
Israel has requested that, but we have made no response that I 
am aware of, and the administration provided no budget--no 
money for it in its budget.
    Can you address coproduction of the Arrow 3 and David's 
Sling?
    Secretary Scher. I will briefly, but then Admiral Syring 
has that budget under his control, so I will ask for details 
from him.
    But, in fact, my understanding is we continue to work 
together with the Israelis to identify what we need to do in 
terms of production, coproduction, and how much money we work 
together with in terms of how much we transfer to the Israelis 
as part of the MDA budget and that that continues to go along, 
based on Secretary Carter's recent visit to Israel, as had been 
planned.
    So I would ask Admiral Syring, if that is okay, sir, 
Congressman, to fill in the details on what that cooperation 
actually looks like.
    Mr. Lamborn. Okay, but I may come back to you on this.
    Secretary Scher. Sure.
    Mr. Lamborn. Admiral.
    Admiral Syring. Sir, let me take that.
    There is ongoing dialogue and negotiations specifically on 
the David's Sling coproduction agreement, which is very 
important for us and very important for Israel. It is weeks 
away in terms of draft, probably months away in terms of final. 
But we had great success with the Iron Dome coproduction 
agreement; I expect similar success with David's Sling.
    Mr. Lamborn. Okay. Thank you for that information.
    What about Arrow 3 coproduction?
    Admiral Syring. That would follow David's Sling, sir. We 
are focused on David's Sling today, as that will be the next 
system fielded and operational.
    Mr. Lamborn. Okay. All right. Thank you for that. I 
appreciate it.
    And back to you, Mr. Scher. The President requested 
approximately $155 million for Israeli missile defense in the 
fiscal year 2016 budget request, but Israel's actual needs were 
approximately $475 million.
    This seems like a three-to-one underfunding to me, only 
funding one-third of what appears to be the actual need. Can 
you discuss that?
    Secretary Scher. I know that we work very closely with the 
Israelis to try to figure out what the best funding approach is 
for our support to their programs and the ones that we do 
coproduction for.
    The President forwarded to the Congress the figure that you 
talked about. We have had, I think, over $3 billion of 
cooperation up to this point. We have, approximately, I think, 
overall, about half a billion dollars in the next fiscal year 
development plan for cooperation with Israel. And I would say 
that that is a negotiation to go on between Congress and the 
White House as to what the final number looks like.
    Mr. Lamborn. Okay.
    And changing subjects slightly, we have heard from the 
administration about missile defense integration and 
interoperability. We have been told that much of this will work 
through organizations like the Gulf Cooperation Council, GCC.
    However, there seem to be problems that are coming up. In 
an article called ``Little Progress Made on Integrated GCC 
Missile Shield,'' we see that we haven't even been able to 
achieve agreement on the establishment of a command and control 
center or how it will be operated or even shared training 
capabilities and foreign disclosure.
    Why is this not coming along better?
    Secretary Scher. I don't know the details of the 
negotiations on those, but what I do know is that, based on the 
Camp David summit, we have reenergized this approach to 
ensuring that the Gulf Cooperation Council countries are able 
to work more collaboratively together and with us. I think we 
have seen greater cooperation in the CAOC [combat air 
operations center] in terms of other operations, and my hope is 
certainly that we will continue that greater collaboration.
    I know that folks from my team and many others have been 
out to the Gulf recently to work on the results of the Camp 
David summit, and we are continuing to follow through. The 
early warnings and indications piece is the first element of 
what we are trying to do and work very closely across the 
regional and also Missile Defense Agency to make sure that we 
can get over some of the problems that we may have seen in the 
past on this issue.
    Mr. Lamborn. Okay.
    And then in my remaining little bit of time, Admiral 
Syring, let me just ask you a general question about the 
budget.
    If we have to resort to a continuing resolution for next 
year's defense, which the House has passed but the Senate 
appears unable to pass, what would that do to missile defense, 
in particular, that is under your portfolio?
    Admiral Syring. Yes, sir. Two items in particular: It would 
put pressure on the procurement accounts because that funding 
would be limited. And, more specifically, it would not enable 
me to begin Poland MILCON [military construction] construction 
if the MILCON is tied up in the CR [continuing resolution]. And 
I view that as critically important, that we have those 
resources to release and the Army has the ability to get under 
contract as soon as possible, later in the first part of 2016.
    Mr. Lamborn. Okay. Thank you very much.
    Mr. Chairman.
    Mr. Rogers. Okay. I thank you.
    And Mr. Garamendi is recognized for 5 minutes.
    Mr. Garamendi. Thank you.
    Just a question for Admiral Syring, if you could. Does the 
Iran deal change your assessment of the East Coast missile 
defense site?
    Admiral Syring. No, sir. So I can expand if you want me to.
    Mr. Garamendi. Would you, please?
    Admiral Syring. Yes, sir.
    I have testified in front of this committee and others that 
there certainly is operational benefit to an East Coast field 
and capacity benefit to an East Coast field, but it is a matter 
of, where does that fit into the priorities, given limited 
resources on our homeland defense system?
    Mr. Garamendi. And it would not be a priority?
    Admiral Syring. Sir, today, in the budget, it is a lower 
priority than in making the GMD program more reliable and more 
complete in terms of the kill chain.
    Mr. Garamendi. Okay. So you remain on the same path, that 
it is a low priority and we ought to be spending our money 
elsewhere. For example, on?
    Admiral Syring. Sir, we are focused on the improvements in 
the homeland defense program, not just in the GBI or the kill 
vehicle itself, but in the radars that we are adding, radar 
that we are adding in Alaska, and all the other improvements 
that you and I have talked about.
    In this year's budget, in PB [President's budget] 2016, 
sir, we are proposing and requesting a shift in directed energy 
funding, in particular----
    Mr. Garamendi. Shift towards?
    Admiral Syring. Towards more directed energy funding.
    Mr. Garamendi. Oh, so directed towards directed energy.
    Admiral Syring. Yes, sir. And we ask for everybody's--all 
four committees' support with that, as we feel it imperative to 
get on with that development.
    Mr. Garamendi. And with the East, if the legislation that 
we pass, NDAA [National Defense Authorization Act] or 
appropriation, would force the money into the East Coast 
defense--or the East Coast missile defense site, that would be 
money that might otherwise be used for directed energy?
    Admiral Syring. Sir, it would come across multiple parts of 
the missile defense budget. It is not cheap. The cost estimate 
is $3 billion to $4 billion over a period of years, and, 
frankly, I don't have that in my budget control today.
    Mr. Garamendi. So the other things would be the higher 
priorities that would be suffering on missile defense if we 
were to proceed with the East Coast site?
    Admiral Syring. Yes, sir.
    Mr. Garamendi. Thank you. No further questions.
    Mr. Rogers. I thank the gentleman.
    The chairman recognizes Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Just a point of clarification that I was kind of surprised.
    Mr. Almont, in your testimony, you spoke about the 8-year--
the lifting of the ban on ballistic missile technology to Iran. 
And you said words to the effect that whatever is sooner, 
referencing the IAEA.
    Did I hear you right, that the IAEA could make an 
assessment whereby that ban could be lifted early, or did I 
hear you wrong?
    Mr. Almont. In fact, I mean, I think this is--I don't know 
this is necessarily an intelligence question. I think that the 
answer--I hate to say this, but I think that this is something 
that State could answer a little bit better, about how the IAEA 
could reach a broader conclusion.
    But, essentially, I think that there is something in the 
agreement that allows them to make an agreement--draw a 
conclusion about whether or not Iran is in compliance with the 
terms of the JCPOA and that the clock changes in terms of the 
arms embargo.
    Mr. Coffman. Okay. I was not aware of that. So what you are 
saying is--under what circumstances would the IAEA make that 
assessment, that, in fact, that they could be accelerated in 
terms of lifting the ban on ballistic missiles?
    Mr. Almont. That, I don't think I am qualified to answer 
that question. I think that is something----
    Mr. Coffman. Is there somebody here that could answer that 
question? Because this is a pretty critical point.
    General Klotz. I would be happy to pursue that in closed 
session.
    Mr. Coffman. Well, I would like to know, is there somebody 
that could answer that question that is here? This is a very 
critical point.
    General Klotz. I can pursue it in closed session.
    Mr. Coffman. Okay. Well----
    Mr. Rogers. We are going to have a closed session right 
after this.
    Mr. Coffman. I don't understand. Why would that be 
classified?
    General Klotz. We can take a look at what specifically is 
written in the JCPOA in terms of when the various dates, 
various milestones take place.
    Mr. Almont is right; there is a provision within the JCPOA 
for adoption day occurring at 8 years or when the IAEA has made 
the broader conclusion. When that takes place--that is known as 
transition day. When that takes place, the U.N. Security 
Council can lift its restrictions on ballistic missiles. And 
there is a whole series of other things which we can detail 
that would take place at transition day.
    Mr. Coffman. Can you point to where that is in the 
agreement? Is this one of these side agreements, or is this in 
the----
    General Klotz. No, this is in the agreement itself.
    Mr. Coffman. This is in the agreement. Where is that in the 
agreement?
    General Klotz. It is in Annex 5, which is called the 
Implementation Plan. And it describes in some detail 
specifically what will happen. On the copy that I have, it is 
the second page of Annex 5 in the actual JCPOA, sir.
    Mr. Coffman. So is this anytime within--can you just tell 
me, is it anytime after this agreement is implemented that the 
IAEA then can make that assessment? Or is there a threshold in 
terms of a number of years after the implementation of the 
agreement that the IAEA is free to make that assessment?
    General Klotz. Well, the threshold is a list of a dozen 
specific things that Iran has to satisfy in terms of the Arak 
heavy water research reactor, heavy water production plants, 
enrichment capability, and so on, which it has to, as I said, 
it has to implement. And the IAEA has to verify that it has, in 
fact, implemented each of those steps, which are laid out in 
great detail in Annex 3 of the JCPOA.
    Realistically, that is going to take some time. But, no, in 
this specific thing, it is at 8 years or when that broader 
conclusion is reached by the IAEA that Iran has met its 
nuclear-related measures as specified in the JCPOA.
    Mr. Coffman. Okay. I think the American people need to be--
well, Congress certainly needs to know, but the American people 
need to be aware of that. I think that is very surprising.
    Mr. Almont, can you tell me about Iran's biological and 
chemical weapons capabilities and their ability to weaponize 
biological and chemical weapons?
    Mr. Almont. If we can wait till the closed session, I can 
address that, sir.
    Mr. Coffman. That is amazing. Okay.
    Mr. Chairman, I yield back. I think everything is pretty 
much in closed session. And I really question the security 
classifications that are being used, that might, in fact, be 
politically embarrassing, and anything politically embarrassing 
seems to be classified.
    I yield back.
    Mr. Rogers. Well, as Mr. Almont stated, we could have 
gotten some answers to some of your questions if the State 
Department hadn't refused to send a witness to this hearing.
    Mr. Bridenstine is recognized for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I am deeply troubled by the Obama administration's last-
minute concessions to Iran on lifting the conventional weapons 
and missile embargoes.
    In testimony to this subcommittee, the Defense Intelligence 
Agency stated that, quote, ``Iran's goal is to develop 
capabilities that will allow it to build missile-deliverable 
nuclear weapons,'' unquote. Lifting these bans makes no sense. 
Iran's words and actions clearly show its desire, in spite of 
the deal, to build longer-range and more sophisticated 
ballistic missiles and proliferate them throughout the region.
    In February, Iran conducted its fourth successful satellite 
launch, this one aboard a two-stage Safir booster. The Safir is 
based on the Shahab-3, Iran's most advanced ballistic missile. 
Iran's supposedly peaceful space program is simply a cover for 
long-range ballistic missile development.
    Last week, the head of Iran's Islamic Revolutionary Guard 
Corps publicly announced plans to expand the range of Iran's 
ballistic missiles. Iran's President, Hassan Rouhani, declared 
last week that Iran is, quote, ``not committed to the 
restrictions on its missile program,'' unquote.
    Israel is Iran's number-one target. While the 
administration says it is doing everything possible to help 
protect Israel, the budgetary record tells a different story.
    And, Mr. Scher, you talked about this when you did your 
opening statement.
    I have two charts. Could I get those up on the screen for 
everybody to see? And then we have handouts, as well.
    [The charts referred to can be found in the Appendix on 
pages 51 and 52.]
    Mr. Bridenstine. Can we get those up on the screen? I was 
told that we could get those up.
    Is that a no, Joy?
    Mr. Rogers. Apparently.
    Mr. Bridenstine. Okay.
    Well, the charts in front of you illustrate the 
administration's requested funding for Israeli missile defense 
versus actual congressional appropriations. Congress 
consistently appropriates funding much closer to Israeli 
requirements.
    The first chart covers funding for all Israeli missile 
defense programs. The President requested approximately $158 
million for Israeli missile defense in the fiscal year 2016 
budget request. The House and Senate Defense Appropriations 
bills both would appropriate Israeli missile defense at over 
$338 million. So it is a comparison of $158 million to $338 
million, a figure much closer to Israel's actual need.
    Secretary Kerry and the President like to tout the 
administration's support for Israeli missile defense. Yet, year 
after year, the President's budget request ends up much, much 
lower than congressional appropriations, which are much closer 
to Israel's needs. Congress always appropriates much closer to 
what Israel asks us for based on its national security 
requirements.
    Mr. Scher, can you explain this difference?
    Secretary Scher. Congressman, we appropriate with a 
combination of understanding of what we have worked with the 
Government of Israel and also understanding the other 
requirements for missile defense money that goes to protection 
of U.S. homeland and articulation of U.S. systems and U.S. 
programs.
    And the President's recommendation then gets forwarded to 
Congress. And then we implement the funding that is eventually 
agreed to by Congress and signed out by the President.
    Mr. Bridenstine. So, when the President sends his budget 
request--it is now up on the screen. I think everybody can see 
it.
    Year after year, the President's budget request is far 
below what Israel asks for. And, of course, Israel is very 
concerned because now there is this agreement with Iran. And it 
is also far below what Congress would like.
    Is that going to change?
    Secretary Scher. Right now, it obviously did not change for 
this year. I am not willing--I don't know the answer to follow-
on years.
    Mr. Bridenstine. Okay.
    Let's go to the next chart, please.
    I have particular interest in David's Sling, as the 
coauthor of the David's Sling Authorization Act. The President 
requested approximately $225 million from fiscal year 2011 to 
fiscal year 2016 for David's Sling. Over the same time, 
according to the Government of Israel, with which this 
committee agreed, the actual requirement was $770 million. The 
administration underfunded the requirement by one-third.
    Mr. Scher, can we expect this underfunding for David's 
Sling to continue under the Iran deal? Is this what the 
administration means by ``support of Israel''?
    Secretary Scher. We will continue to look at how we can 
better cooperate on David's Sling. Admiral Syring mentioned 
this previously. I am happy to encourage if there are any--more 
details. But that is a newer program, and, hence, the figures 
and the viability of those specific figures changes as we look 
through.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Mr. Rogers. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Ohio, Chairman 
Turner, for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    General Klotz, I would like to talk to you, as our chairman 
has, about the 123 Agreements and nations who have agreements 
with the United States that may or may not be at risk.
    I know that whenever we have an open session and a closed 
session there is always this sensitivity between the issue of 
what is open and what is closed. So I want to ask you a 
question about that line.
    So if the UAE, the United Arab Emirates, picked up the 
phone and called Secretary Kerry and said, ``We affirm our 
requirements and our agreements with the United States and our 
123 Agreements and we will not pursue any uranium enrichment,'' 
we could discuss that openly, right? Because it is just 
affirming an ongoing commitment that is there that we all know 
is public.
    General Klotz. Yes. The 123 Agreement with the United Arab 
Emirates is public.
    Mr. Turner. But the affirmation of it, the fact that the 
UAE has no intention of reevaluating it, that there is no 
discussion about pursuing uranium enrichment, that there is no 
concern about the agreement as a result of the agreement with 
Iran, if all that was affirming, you would be able to discuss 
that in this meeting, right? Because it is all the status quo.
    General Klotz. You know, I don't really know the answer to 
that, Congressman, because I am having a little difficulty 
following the question. It would----
    Mr. Turner. Well, let me help you.
    General Klotz. I suspect it would depend on how that was 
communicated to the United States. If it was made public by a 
member state, what its intentions were, that would be something 
which I assume we could discuss. If it was something that was 
passed on in confidential----
    Mr. Turner. Well, let me help you.
    General Klotz. Yeah.
    Mr. Turner. There are also prohibitions against lying to 
Congress. Do you have any information that a nation, such as 
United Arab Emirates, has contacted the United States and 
indicated that they intend to walk away from their 123 
Agreement obligations that restrict uranium enrichment?
    General Klotz. I have no knowledge of that.
    Mr. Turner. No one has informed you from the administration 
or from any other agency that they have information of that?
    General Klotz. Not me personally.
    Mr. Turner. So you have had no discussions with anyone that 
anyone has related to you of their awareness or information of 
a concern of 123 Agreement and the United Arab Emirates and 
their issues with respect to uranium enrichment?
    General Klotz. To the best of my knowledge, no, that has 
not been a subject. I am aware of what the UAE 123 Agreement is 
in a general sense, but I have not been involved in any 
specific discussions on that subject.
    Mr. Turner. I am troubled by your word ``specific.'' Have 
you had unspecific discussions?
    General Klotz. Congressman, I have not had any discussions 
or any special briefings on UAE 123 Agreement.
    Mr. Turner. Okay.
    General Klotz. I am aware of it because it is one of the 
123 Agreements that the United States has with other nations, 
and I have read a lot in the press and in other documents about 
that particular agreement but not about the specific issue that 
you raised.
    Mr. Turner. Well, you would certainly understand our 
concern, because, as Congress takes up the issue of the Iranian 
agreement, Secretary Kerry has made absolute statements to 
Congress that there is no one in the Middle East who will 
change their obligations with respect to nonproliferation or 
their relationship with the United States with respect to 
uranium enrichment.
    And, certainly, if anyone had information that that was 
other than how the Secretary of State has represented it, it 
should be known by decision-makers. Because they are not just 
voting on the issue of Iran; they are voting on nuclear 
programs by Iran and their neighbors. You could see why that 
would be a level of concern.
    General Klotz. I understand--I understand your point, 
Congressman.
    Mr. Turner. Excellent.
    Well, we are going into closed session, and I know you have 
availed yourself of the issue of closed session. I am very 
concerned about the issue of the--as we look to the IAEA and 
the portions of the document that are secret, with the IAEA's 
relationships and deals with Iran concerning inspections.
    Do you have information that you are going to be able to 
provide us in the closed session concerning the secret 
agreement that we have not seen?
    General Klotz. I am willing to discuss what we know about 
that particular issue in the closed session.
    Mr. Turner. Do you have details?
    General Klotz. I have information which we can discuss in 
the closed session.
    Mr. Turner. Have you seen that agreement?
    General Klotz. I have not seen that agreement.
    Mr. Turner. Yeah, that would be fairly consistent with what 
everyone else has done, but yet we have people who are willing 
to vote in favor of an agreement that includes secret 
provisions that no one has seen and you have not either.
    I yield back.
    Mr. Rogers. I thank the chairman.
    We can't get into the SCIF [Sensitive Compartmented 
Information Facility] for 10 more minutes, so I am going to let 
Mr. Lamborn ask one more question and I am going to ask one 
more.
    Mr. Lamborn. Thank you, Mr. Chairman, for indulging me for 
asking one more question.
    And I will start with Admiral Syring and General Shepro. 
And my purpose isn't to put you on the spot. My purpose is to 
get your best judgment, because this is such an important issue 
that we are voting on. It is historic.
    Were you, either of you, consulted before the negotiators, 
whether it was the Secretary or the President, agreed to drop 
the ballistic missile embargo on Iran as part of the JCPOA? 
Were either of you consulted about that?
    Admiral Syring. No, sir.
    General Shepro. No, sir.
    Mr. Lamborn. Okay. And I guess that is what I assumed. Had 
you been, what concerns would you two have shared to whoever 
asked you?
    Admiral Syring. Sir, I will take that first.
    You know, my focus in missile defense against Iran is 
unchanged by the agreement. We remained entirely focused on 
their rapid escalation of capability and capacity over the last 
several years, and we made absolutely the right decision to 
focus on regional defense for that potential escalation.
    And I can tell you that my job is to be pessimistic, not 
optimistic, and everything we do at the Agency is planning for 
that capability to increase and that capacity to increase at 
the rate it has. And, as far as I am concerned, we--and I have 
read the agreement--we remain focused on that very mission.
    Mr. Lamborn. General.
    General Shepro. Sir, I represent the Chairman [of the Joint 
Chiefs of Staff], and, as he has said on the Hill before, this 
agreement addresses one point of friction with Iran.
    Mr. Lamborn. Excuse me?
    General Shepro. This agreement addresses one point of 
friction with Iran, the nuclear arena, and that we must keep 
pressure on the other malign activities.
    And so, as Chairman Rogers has cited in the beginning, I 
agree with the Chairman that we must continue to keep pressure 
on this area of development of ballistic missiles.
    Mr. Lamborn. And I will just make a comment. It was a 
nuclear agreement, but we all of a sudden see arms embargo 
lifted and ballistic missile embargo lifted, which are 
nonnuclear issues. I mean, there were enough concessions 
already, but then to add those on top of it really staggers me.
    General, don't you have a concern about the ballistic 
missile embargo being lifted?
    General Shepro. Again, I will cite Chairman Dempsey's 
previous statements that, in a perfect world, the embargo would 
remain, but, as it is, we remain concerned about this, and we 
must continue to keep pressure on this area.
    Mr. Lamborn. All right. Thank you, Mr. Chairman.
    Mr. Rogers. The Chair now recognizes Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman.
    General Klotz and the Vice Admiral, with respect to budget 
and allocations for missile defense, is it fair to say with 
sequestration technically kicking back in in October that that 
would also affect the support that we could offer for missile 
defense for our allies, in addition to a continuing resolution 
that could also offer reduced support and aid? Is that fair to 
say, as well?
    General Klotz. Well, sir, I don't deal with missile defense 
in the National Nuclear Security Administration. But let me 
just say, since you have created an opportunity to do that, 
that there are a number of very, very important programs that 
are underway within the Department of Energy and National 
Nuclear Security Administration which apply to maintaining a 
safe, secure, and effective nuclear arsenal and posturing 
ourselves for the future that would be severely affected by 
sequestration or budget caps and without any relief from that.
    Admiral Syring. And, sir, for missile defense, and I will 
just talk to your specific concerns on the CR, that certainly 
procurement account pressure would happen under the CR. But my 
more specific concern earlier was the potential impact on the 
MILCON for Poland and EPAA Phase 3, which gets to your point on 
exactly what are we doing with our allies and would it affect 
that. So the answer would be yes.
    And then, for sequestration, I have testified in front of 
this committee and others that sequestration at the levels that 
are being considered would be catastrophic to what we have 
proposed with the improvements that must be made for homeland 
defense and the regional defense systems.
    In particular, the redesigned kill vehicle and the new 
radar would be at risk, and I have testified before that I view 
that as overmatching. If those improvements aren't made, our 
system could be overmatched by 2020.
    Mr. Aguilar. Thank you, sir. Thank you, Mr. Chairman. I 
yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair is informed that Mr. Turner has one more 
question.
    Mr. Turner. Thank you, Mr. Chairman.
    General Klotz, just one more addition. I would recommend 
that you do pick up the phone and call the Secretary of State 
and ask him if there is any additional information that he 
should provide to you that is inconsistent with your statements 
today and if there is any information he needs to update you 
on.
    General Klotz. Well, I will see if he will take my call. I 
doubt if an Under Secretary from the Department of Energy would 
necessarily get through on the first try.
    Mr. Turner. The effort, since you put such an admirable 
effort forward here, it would probably be helpful.
    General Klotz. Thank you for the suggestion, Congressman.
    Mr. Turner. General Shepro, representing, obviously, the 
Joint Staff, Admiral Syring has said an answer on the East 
Coast missile defense site, of which I am an advocate for, that 
I don't criticize in any respect. And I think the Admiral has 
articulated both a need and a desirableness for an East Coast 
missile defense site but has recognized the fiscal constraints 
under which he is under and has, you know, identified that as a 
problem for executing an East Coast missile defense site.
    But even though I am an advocate for the East Coast missile 
defense site, I am obviously not the initiator of the East 
Coast missile defense site. We always, here on the Armed 
Services Committee, look to the experts, those in the military, 
as to what their needs are when we, as the Admiral has so 
greatly articulated, try to allocate resources.
    And, General, perhaps you could give us an articulation on 
the issue of our response to NORTHCOM [Northern Command]. 
NORTHCOM continues to include in its integrated priority list 
the need for an additional interceptor site, a third site in 
the United States defense of the homeland.
    We didn't make this up. We are just agreeing that there is 
the need, which I think Admiral Syring has recognized the need 
and the benefits of a third site. And, in that, it is our 
attempt to try to respond to it in allocating resources.
    We are the ones who obviously have to pick where those 
resources come from. We are not telling the admiral, we are 
going to do this and you have to go take it from your existing 
programs. It is something that we have to find the money for.
    Could you articulate that--NORTHCOM has continued to 
identify it on the integrated priority list. That still sounds 
pretty important, isn't it?
    General Shepro. Yes, sir. Important, yes. But if you want 
to listen to the expert, I have to defer to Admiral Syring, 
because he is.
    Mr. Turner. Admiral.
    Admiral Syring. Mr. Turner, thank you.
    It has showed up in their priority list. And I would just 
cite, sir, that it is a priority list, in terms of--there are 
many other requirements in that list that we are addressing. 
And we can go through that in detail, in terms of funding 
allocated to both NORTHCOM and STRATCOM's [Strategic Command's] 
priority list----
    Mr. Turner. But what I was looking for--and I understand 
your prior answer, Admiral, of the allocation of resources and 
priorities. But I wanted your answer--or, actually, either of 
your answers--on the issue of need. I mean, since it is showing 
up on the integrated party list, it is a need. Could you 
describe the need?
    Admiral Syring. The need or the benefit is operational and 
capacity.
    Mr. Turner. And what would that be?
    Admiral Syring. It would allow more interceptors, which is 
always better in terms of the warfighter, and it would allow 
more decision space, as both combatant commanders have 
testified to.
    Mr. Turner. Explain ``decision space.''
    Admiral Syring. ``Decision space'' in terms of a potential 
threat from Iran, an ICBM in particular, and what that would 
provide in terms of interceptor fly-out time and future 
assessment capability.
    And I will just leave it at that.
    Mr. Turner. Well, you know, I have a minute and a half 
left, and I would like to not leave it at that.
    Okay, so additional time and interceptors. Obviously, 
proximity is one, right?
    Admiral Syring. Yes, sir.
    Mr. Turner. The East Coast is closer than Alaska, where the 
other missiles might be coming from.
    Admiral Syring. Geographically.
    Mr. Turner. Correct.
    And you said additional decision making. Well, that would 
also be an issue of what we have referred to and you have 
referred to as ``shoot, look, shoot,'' right?
    Admiral Syring. Yes, sir.
    Mr. Turner. You will be able to apply an asset to incoming 
asset, have an opportunity to assess whether or not the United 
States, hundreds of thousands of Americans at risk require an 
additional shot, correct?
    Admiral Syring. Yes, sir.
    Mr. Turner. So that is what you are talking about, the 
ability to shoot twice, the ability to try to take something 
out of the sky, the ability to eliminate a threat to mainland 
United States.
    Admiral Syring. Sir, I would just qualify that by having a 
first-shot opportunity sooner.
    Mr. Turner. Thank you for elaborating.
    That is all.
    Mr. Rogers. I think that is it.
    Before we do go into closed session, though, Mr. Almont, I 
did want to ask you something I think you can answer in the 
open session.
    In your prepared statement, you cite Iranian claims that it 
would launch a space-launch vehicle as early as this year. And 
you also stated, this vehicle will be capable of 
intercontinental ballistic missile ranges if configured as an 
ICBM.
    Didn't they just test that earlier this year?
    Mr. Almont. They did tests on the 2nd of September, I 
believe, and they have announced that they are going to attempt 
another launch of that same system sometime in the near future.
    Mr. Rogers. Thank you.
    All right. We are going to adjourn and then reconvene in 
2337 in about 5 minutes. We are in adjournment.
    [Whereupon, at 3:02 p.m., the subcommittee proceeded in 
closed session.]

      
=======================================================================




                            A P P E N D I X

                           September 10, 2015

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 10, 2015

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       

      
  
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 10, 2015

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       

      
   Note: Appropriated Amount is the top graph line; President's 
Budget Request is the bottom graph line.
[GRAPHIC] [TIFF OMITTED] T6240.026


    Note: Appropriated Amount is the top graph line; President's 
Budget Request is the bottom graph line.

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 10, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Did you, or did any NNSA personnel, see a draft or the 
final version of the confidential agreement between the IAEA and Iran?
    a. Did the national lab ``red teams'' see the confidential 
agreement between IAEA and Iran?
    b. So, it was the case that the labs red teams relied on 
representations by the administration? Who? Which officials? General 
Klotz, were you one?
    c. Was the red team tasked with assessing the integrity of the IAEA 
agreement with Iran or assessing whether this regime would in fact 
answer the question of what the Iranians have done at Parchin?
    General Klotz. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Please explain Annex 3 of the JCPOA, which spells out 
the kinds of civil nuclear cooperation Iran can expect to receive from 
the United States and other parties to the agreement.
    a. Will Russia or China, or the IAEA for that matter, be able to 
provide any U.S. origin technology, know-how, or material to Iran?
    b. Will we provide any technology, material or know-how to Iran to 
``harden'' its nuclear capabilities from foreign cyber capability?
    General Klotz. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Is there any legitimate reason for Iran to produce 
highly enriched uranium, which is to say, HEU enriched to above 4%?
    General Klotz. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Can you tell us who first revealed Iran's uranium 
enrichment capability in 2003? Was it the IAEA?
    a. When did the U.S. first detect it?
    b. Did we share that information with the IAEA?
    c. What covert nuclear capability has even been detected by the 
IAEA?
    d. Would you support sharing with the IAEA all of our capabilities 
to detect Iranian cheating with this agreement?
    General Klotz. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. General Klotz, you were the Director for Nuclear Policy 
and Arms Control on the NSC from 2001 to 2003. Were you involved in the 
decision of the CIA to, in November 2002, provide Congress with an 
unclassified estimate on North Korea's nuclear program that the United 
States had information since the early 1990s that North Korea had more 
than one nuclear weapon, notwithstanding its obligations under the 
Agreed Framework of 1994?
    a. How should Congress ensure that no future administration is able 
to conceal evidence of cheating on these kinds of ad hoc arms control 
agreements?
    General Klotz. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. As the senior DOD witness, are you able to pledge 
without hesitation that the administration will make no changes 
whatsoever in the deployment of an Aegis Ashore site in Romania and 
Poland as a consequence of the JCPOA? This should be a yes or no 
answer.
    Secretary Scher. Yes. There are no plans to change the deployment 
of an Aegis Ashore site in Romania and Poland as a consequence of the 
Joint Comprehensive Plan of Action (JCPOA).
    Mr. Rogers. When the EPAA was announced, and the Ballistic Missile 
Defense Review were announced, were they based on an assumption of free 
cooperation between Iran, Russia, China and North Korea on ballistic 
missile defense?
    Is the administration updating its reviews of our ballistic missile 
posture to respond to the future Iranian ballistic missile program?
    Secretary Scher. The Administration considered many factors in 
formulating its national ballistic missile defense (BMD) policy in 
2009, including our growing capabilities, Alliance relationships, 
affordability, and the current and projected threat.
    The Department continuously evaluates its global missile defense 
posture and makes adjustments to account for the evolving threat, 
addition of new capabilities, and force sustainment and modernization 
requirements. If an Iranian intercontinental ballistic missile threat 
should emerge, our current deployment of Ground-Based Interceptors in 
the United States is postured to respond in the near term. If the 
threat should grow, we have developed hedge measures to bolster our 
homeland defense system in the future.
    Mr. Rogers. Does DOD support the Israeli requests for U.S. support 
for coproduction of Arrow III and David's Sling? No funds were in the 
administration budget request for it and we've heard nothing official 
from the administration about the funds provided in the Strategic 
Forces Mark provided in the FY16 NDAA.
    Secretary Scher. The Department supports the current President's 
Budget for Fiscal Year 2016 (PB2016) for coproduction of the Arrow 3 
interceptor or the David's Sling Weapon System (DSWS). The PB2016 for 
Israeli Programs was developed based on the U.S. assessment of the 
executable rate of progress for the Arrow 3 and the DSWS, and the U.S.-
Israeli project agreements currently support the PB2016 submittal.
    Regarding the DSWS, the additional $150.0 million funding increase 
for co-production may be premature given the acquisition phase of the 
DSWS. The Missile Defense Agency (MDA) budget request was developed as 
an integrated and balanced approach to meet the needs of the entire 
ballistic missile defense system (BMDS) budget profile. The Department 
officially responded to Congress in its July 31, 2015, Budgetary Appeal 
recommending that the $150.0 million in the House and Senate bills be 
redirected from this congressional ``add'' to restore the reductions 
elsewhere to U.S. BMDS programs.
    Concerning the Arrow-3, this co-development program is at an 
earlier stage of the development process, with additional knowledge 
points and technical milestones required prior to transitioning from 
development to production.
    Mr. Rogers. The President requested approximately $155 million for 
Israeli Missile Defense in the FY16 budget request, but Israeli's 
actual needs were approximately $475.2 million. Secretary Kerry and the 
President like to tout the administration's support for Israeli Missile 
defense; how do you explain this underfunding then?
    a. Likewise, in FY15, the administration requested $176 million, 
but the actual requirement was $351 million.
    b. Or, David's Sling. The President requested $46 million in FY11, 
$41 million in FY12, $38 million in FY13, $32 million in FY14, $31 
million in FY15, and $37 million in FY16, or approximately $225 
million. Over that same time, according to the government of Israel, 
with which this committee agreed, the actual requirement was $770 
million. The administration underfunded the requirement by one-third. 
Mr. Scher, can we expect this underfunding to continue under the JCPOA? 
Is this what the administration means by support to Israel?
    Secretary Scher. Our commitment to Israel is ironclad. We recognize 
that Israel faces very real missile threats from a number of actors in 
the region, and Israel's security remains a top priority. In addition 
to Foreign Military Financing assistance, the United States has 
provided more than $3 billion in missile defense assistance to Israel 
since 2001. DOD has worked with Israel to develop, produce, and fund a 
multi-layered missile defense architecture that includes the Iron Dome, 
David's Sling, and Arrow weapon systems. The President Budget request 
for Fiscal Year 2016 includes Israeli programs and was developed based 
on the U.S. assessment of an executable rate of progress with the U.S.-
Israeli project agreements supporting the budget submittal. We will 
continue to ensure the most effective use and efficient investment of 
U.S. taxpayer dollars for the security of our strategic partner.
    Mr. Rogers. We've heard much from the administration about missile 
defense integration and interoperability as a solution to our own 
missile defense shortfalls. We've been told much of this will work 
through organizations like the Gulf Cooperation Council. However, based 
on recent reporting, it appears that is not working as planned. In an 
article ``Little Progress Made on Integrated GCC Missile Shield'', we 
see that we haven't even been able to achieve agreement on the 
establishment of a command-and-control center, how it will be operated, 
or even shared training capabilities and foreign disclosure. What are 
the obstacles to getting this done?
    Secretary Scher. The United States continues to engage our Gulf 
Cooperation Council (GCC) partners in pursuit of an interoperable 
missile defense architecture. At Camp David, the President pledged U.S. 
assistance to the GCC member States in their commitment ``to develop a 
region-wide ballistic missile defense capability.'' This end state will 
require us to progress from bilateral missile defense cooperation 
between the U.S. and its GCC partners today to a more integrated 
multilateral approach in which the partners are sharing sensor data, 
developing joint missile defense operating concepts and training 
together. While reaching this end state will not occur overnight, we 
believe we are on the right path working with our GCC partners to 
facilitate the purchase of U.S. missile defense systems, engaging them 
in operational discussions through USCENTCOM and supporting analytic 
and requirements assessments related to developing a ballistic missile 
defense architecture and a GCC-wide Ballistic Missile Early Warning 
System.
    Mr. Rogers. What is the likely impact on Iran's ballistic missile 
program of its ability to test freely its ballistic missile capability?
    Mr. Almont. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Please explain the role that foreign ballistic missile 
technology has been assessed to play in Iran's ICBM development? The 
JCPOA and resultant U.N. Security Council Resolution will phase out the 
limitations on such development, correct?
    Mr. Almont. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Is there any legitimate reason for Iran to produce 
highly enriched uranium, which is to say, HEU enriched to above 4%?
    Mr. Almont. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Can you tell us who first revealed Iran's uranium 
enrichment capability in 2003? Was it the IAEA?
    a. When did the U.S. first detect it?
    b. Did we share that information with the IAEA?
    c. What covert nuclear capability has even been detected by the 
IAEA?
    d. Would you support sharing with the IAEA all of our capabilities 
to detect Iranian cheating with this agreement?
    Mr. Almont. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Why do you assess the Saudis are interested in 
purchase--in fact, becoming the first foreign buyer--of the Russian 
Iskander nuclear-capable ballistic missile?
    Mr. Almont. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. What country provided Yemen's rebels with the ballistic 
missile they used to kill 45 UAE troops over the weekend?
    Mr. Almont. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. What are Iran's biological and chemical weapons 
capabilities? Do you assess they have the capability to weaponize 
biological and chemical weapons? Is Iran behaving consistently with its 
obligations under the Chemical Weapons Convention?
    Mr. Almont. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. In a press report ``Iran Already Sanitzing Nuclear 
Site, Intel Warns'', dated August 5, it was reported that Iran began 
sanitizing the Parchin site shortly after the JCPOA was signed. Mr. 
Almont, what can you tell us about the activities Iran undertook to 
sanitize the Parchin site? Was this the first time Iran has undertaken 
to sanitize Parchin?
    Mr. Almont. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Can you please describe the status of discussions with 
Israel concerning David's Sling development and potential coproduction?
    Admiral Syring. The Missile Defense Agency (MDA) has not commenced 
formal negotiations with the Israel Missile Defense Organization (IMDO) 
regarding a proposed David's Sling Weapon System (DSWS) Production 
Agreement. MDA initiated preliminary discussions of a technical nature 
and provided to IMDO what MDA views as the basic tenets of a possible 
DSWS production agreement. International agreements typically require 
9-12 months to negotiate and conclude; however our experience has shown 
that complicated agreements sometimes lead to protracted negotiations 
that extend that timeline. For example, the Iron Dome Procurement 
Agreement took 17 months from the start of negotiations to conclusion.
    Mr. Rogers. Please describe the impact to our BMD (other 
capabilities) if you are forced to operate under sequester level 
spending or a yearlong CR?
    a. Can you articulate specific impacts to our counter-Iran posture 
in Europe and the Mideast?
    b. Is it correct then that you approve a funding level consistent 
with what was requested by the President in his budget request, such as 
the FY16 NDAA or FY16 Defense Appropriations bill?
    Admiral Syring. If forced to operate under sequestration levels, I 
testified earlier this year that the Missile Defense Agency (MDA) would 
likely scale back or eliminate work that we started last year on the 
redesigned kill vehicle and the long range discrimination radar. 
Without these improvements, the country would be in serious jeopardy as 
the system would be overmatched over time.
    A. I do not envision a negative impact to our missile defense plans 
for Europe or the Middle East due to sequestration. We are committed to 
our North Atlantic Treaty Organization Allies and remain on track to 
field European Phased Adaptive Approach Phases II and III by 2015 and 
2018, respectively. For the Middle East, specifically Israel, the only 
impact of sequestration or a yearlong CR is related to any procurement 
funding Congress may appropriate for David's Sling or Arrow 3 
production. These would be considered new starts and we would not be 
able to transfer funding to Israel even if the production agreement is 
negotiated and concluded.
    B. Yes, I support the President's FY16 budget
    Mr. Rogers. What is the likely impact on Iran's ballistic missile 
program of its ability to test freely its ballistic missile capability?
    Admiral Syring. I defer any questions regarding Iranian ballistic 
missile development and testing to the intelligence community.
    Mr. Rogers. Please explain the role that foreign ballistic missile 
technology has been assessed to play in Iran's ICBM development? The 
JCPOA and resultant U.N. Security Council Resolution will phase out the 
limitations on such development, correct?
    Admiral Syring. I defer any questions related to the specific terms 
and conditions of the JCPOA to the U.S. Department of State and the 
Under Secretary of Defense for Policy, and any questions regarding 
Iran's ballistic missile technology development to the intelligence 
community.
    Mr. Rogers. When the EPAA was announced, and the Ballistic Missile 
Defense Review were announced, were they based on an assumption of free 
cooperation between Iran, Russia, China and North Korea on ballistic 
missile defense?
    Is the administration updating its reviews of our ballistic missile 
posture to respond to the future Iranian ballistic missile program?
    Admiral Syring. The Under Secretary of Defense for Policy (USD-P) 
was the primary DOD-organization responsible for drafting the Ballistic 
Missile Defense Review. I defer to USD-P regarding the assumptions in 
the document and planned future updates.
    Mr. Rogers. Have you been tasked to update your assessments of 
Iran's ballistic and cruise missile capability now that the ballistic 
missile embargo and ballistic missile test prohibition have been, or 
will be, phased out?
    Admiral Syring. No, the intelligence community is responsible for 
updating assessments on Iran's ballistic and cruise missile capability.
    Mr. Rogers. In May 2009, an unclassified intelligence report issued 
by the National Air and Space Intelligence Center (NASIC) stated, 
``with sufficient foreign assistance, Iran could develop and test an 
ICBM capable of reaching the United States by 2015.'' Then, the 
administration changed its plans for BMD deployment because it claimed 
there was new intelligence that showed the threat from short and medium 
range Iranian BMs was already here. What is your best military advice 
for how lifting the embargo will affect the need for missile defenses, 
and how will it impact the rate at which Iran can make progress on an 
ICBM?
    Admiral Syring. I am not in position to assess the impact of 
lifting the embargo. This is the responsibility of the intelligence 
community and I defer to them for any assessments on lifting the 
embargo.
    Mr. Rogers. We've heard much from the administration about missile 
defense integration and interoperability as a solution to our own 
missile defense shortfalls. We've been told much of this will work 
through organizations like the Gulf Cooperation Council. However, based 
on recent reporting, it appears that is not working as planned. In an 
article ``Little Progress Made on Integrated GCC Missile Shield'', we 
see that we haven't even been able to achieve agreement on the 
establishment of a command-and-control center, how it will be operated, 
or even shared training capabilities and foreign disclosure. What are 
the obstacles to getting this done?
    Admiral Syring. We are working with our counterparts within the 
Department to address GCC ballistic missile early warning system 
requirements. To that end, we participated in an August 2015 meeting 
with the GCC to further define their requirements. We are using the 
information from this meeting to inform a top-level engineering 
analysis and expect to meet again with our GCC partners later this year 
to review the work. We also plan to issue a request for information to 
industry to enable future evaluation of sensor and command, control and 
communication solutions.
    Mr. Rogers. Please describe the impact to our BMD (other 
capabilities) if you are forced to operate under sequester level 
spending or a yearlong CR?
    a. Can you articulate specific impacts to our counter-Iran posture 
in Europe and the Mideast?
    b. Is it correct then that you approve a funding level consistent 
with what was requested by the President in his budget request, such as 
the FY16 NDAA or FY16 Defense Appropriations bill?
    General Shepro. Sequester-level spending will have minimal impact 
on the overall enhancement of regional missile defense. The FY16 budget 
request includes adequate funding, consistent with the President's 
request, to enhance our homeland missile defense system, increase our 
regional missile defense capabilities, and maintain the Presidential 
commitment to the European Phased Adaptive Approach (EPAA).
    Mr. Rogers. Representing the Joint Staff, can you articulate why 
NORTHCOM continues to include in its Integrated Priority List the need 
for an additional interceptor site--a third site--in the United States 
for the defense of the homeland?
    General Shepro. The purpose of an IPL is to identify potential 
priority capability gaps across all mission areas. An individual IPL 
item details a specific potential gap and further identifies a 
multitude of possible mitigation actions/solutions.
    In this case, an East Coast Site is mentioned as a potential 
mitigation action/solution, which is consistent with Congressional 
direction. However, at this time, USNORTHCOM does not have a 
requirement for an additional GMD interceptor site, based upon the 
current threat, and as further stated in testimony by CDRUSNORTHCOM 
over the past several years.
    Mr. Rogers. Have you been tasked to update your assessments of 
Iran's ballistic and cruise missile capability now that the ballistic 
missile embargo and ballistic missile test prohibition have been, or 
will be, phased out?
    General Shepro. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. In May 2009, an unclassified intelligence report issued 
by the National Air and Space Intelligence Center (NASIC) stated, 
``with sufficient foreign assistance, Iran could develop and test an 
ICBM capable of reaching the United States by 2015.'' Then, the 
administration changed its plans for BMD deployment because it claimed 
there was new intelligence that showed the threat from short and medium 
range Iranian BMs was already here. What is your best military advice 
for how lifting the embargo will affect the need for missile defenses, 
and how will it impact the rate at which Iran can make progress on an 
ICBM?
    General Shepro. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. What can you tell us about the findings of the Joint 
Capabilities Mix (JCM) Study III completed approximately 4 years ago 
concerning our ability to respond to the Iranian ballistic missile 
threat?
    a. Are you familiar with the JCM IV update that's being conducted 
at present? It will look out as far as the 2020s and beyond, right? b. 
Will this update take into account the impact of the concessions made 
in the JCPOA concerning Iran's ballistic missile program?
    General Shepro. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. In FY 09 the President's budget request for the Missile 
Defense Agency was at $9.3 Billion and based on current trend lines it 
could go as low as $7.3 Billion in FY 18. What is the impact of these 
diminishing funding levels to our ability to protect our nation and our 
allies if the government of Iran violates the terms of the nuclear 
deal?
    Admiral Syring. Our President's budget (PB) 2016 request is 
sufficient to keep us on track to meet our missile defense commitments. 
My biggest concern remains the potential impacts to the Ballistic 
Missile Defense System if sequestration remains in place. As previously 
discussed before this committee, we have ballistic missile defense 
capabilities deployed today that address the current North Korean and 
Iranian threat and our PB 2016 budget request puts us in position to 
defend against future Iranian ballistic missile threats including a 
potential intercontinental ballistic missile. If sequestration remains 
in place, the Department would likely need to delay our planned 
improvements with the re-designed kill vehicle and the Long Range 
Discrimination Radar.
    Mr. Forbes. What is the likely impact on Iran's ballistic missile 
program of its ability to test freely its ballistic missile capability?
    a. Please explain the role that foreign ballistic missile 
technology has been assessed to play in Iran's ICBM development? The 
JCPOA and resultant U.N. Security Council Resolution will phase out the 
limitations on such development, correct?
    b. When the EPAA was announced, and the Ballistic Missile Defense 
Review were announced, were they based on an assumption of free 
cooperation between Iran, Russia, China and North Korea on ballistic 
missile defense?
    c. Is the administration updating its reviews of our ballistic 
missile posture to respond to the future Iranian ballistic missile 
program?
    d. Have you been tasked to update your assessments of Iran's 
ballistic and cruise missile capability now that the ballistic missile 
embargo and ballistic missile test prohibition have been, or will be, 
phased out?
    Admiral Syring. I defer any questions regarding Iranian ballistic 
missile development and testing to the intelligence community. a. I 
defer any questions related to the specific terms and conditions of the 
JCPOA to the U.S. Department of State and the Under Secretary of 
Defense for Policy, and any questions regarding Iran's ballistic 
missile technology development to the intelligence community. b. The 
Under Secretary of Defense for Policy (USD-P) was the primary DOD-
organization responsible for drafting the Ballistic Missile Defense 
Review. c. I defer to USD-P regarding the assumptions in the document 
and planned future updates. d. No, the intelligence community is 
responsible for updating assessments on Iran's ballistic and cruise 
missile capability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Is it correct that the so-called 123 agreement between 
the United States and the United Arab Emirates would prohibit the 
possession of uranium enrichment and plutonium reprocessing technology 
by that country?
    a. Is it correct that the United States has been seeking the 
agreement of Saudi Arabia for this same so-called ``Gold Standard''?
    b. Has either country discussed with the U.S. whether or not they 
too, post negotiation of the JCPOA, can seek enrichment? Does the 
administration have a position on whether or not either country, both 
U.S. allies in the region and enemies of Iran, should continue to be 
held to these same apparently anachronistic policies?
    General Klotz. [The information is classified and retained in the 
committee files.]
    Mr. Turner. Do you receive a regular intelligence briefing on 
matters within your purview as Administrator, NNSA and Under Secretary 
of Energy for Nuclear Security? How often? What IC agency or element 
performs those briefings?
    General Klotz. [The information is classified and retained in the 
committee files.]
    Mr. Turner. I raised in closed session with you a matter based on 
sensitive intelligence reporting. Was that the first you learned of 
this matter? Had you not been briefed on it before, including during 
your regular intelligence briefings? Were you subsequently briefed on 
the matter I raised? If so, by whom and when?
    General Klotz. [The information is classified and retained in the 
committee files.]
    Mr. Turner. Are you aware of whether any other U.S. official 
responsible for this subject matter was aware of the issued covered in 
that sensitive intelligence reporting? If so, who?
    General Klotz. [The information is classified and retained in the 
committee files.]
    Mr. Turner. Are you aware of any information concerning intentions 
by the UAE or Saudi Arabia regarding their plans to develop uranium 
enrichment capability?
    Mr. Almont. [The information is classified and retained in the 
committee files.]

                                  [all]
</pre></body></html>
